16.
No.
IN THE SUPREME COURT OF THE UNITED
STATES JURISDICTIONAL STATEMENT OF
DECLARATION IN COMPLIANCE WITH 28 U.S.C. §
1776 RULE 29.5 (C) OF PROOF OF SERVICE
In re GRACIE E. MCBROOM PRO SE -PETITIONER
VS.
HR DIRECTOR FRANKLIN COUNTY BOARD OF
ELECTIONS
-RESPONDENT
PROOF OF SERVICE
I, In re Gracie E. McBroom,do swear or declare that on
this date.
9-27-2019
., 2019, as
required by Supreme Court Rule 29 I have served the
enclosed PETITION FOR EXTRAORDINARY WRIT/AN
WRIT OF MANDAMUS on each party to the above
proceeding or that party’s counsel, and on every other
person required to be served, by depositing an envelope
containing the above documents in the united states mail
properly addressed to each of them and with first-class
postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served as follows:
Jeffrey C. Rogers (00693991. Franklin Prosecutor’s Office.
Civil Division. 373 S. High Street. 13th Floor. Columbus.
Ohio 43215
and,
Scott J. Gaugler, Assistant Prosecuting Attorney.
Franklin County Prosecutor’s Office 373~S7High~StreetT
13th Floor. Columbus. Ohio 43215
I declare under penalty of perjury that the foregoing is
true and correct.
Executed on 9-27
., 2019.
L

